                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: .          .I I007(kJJ:Z                                                      Page 1 of 1



                 We received an allegation that an employee, 1 had traveled and provided speeches at
         international conferences without NSF authorization. Our investigation determined that the
         employee submitted false statements when he submitted yearly Financial Disclosure Reports, SF-
         450, by failing to disclose travel related reimbursements and other gifts from restricted sources.

                 We referred this matter to the Department of Justice and the employee retired while under
         investigation. After his retirement from NSF, the former employee entered a plea of guilty in
         Federal Court to a single count of submitting False Statements to NSF and was sentenced to one
         year probation, paid restitution of$1601.80, a fine of$5000.00 and special assessment of
         $100.00.

                   Based on our recommendation, NSF debarred the former employee for a period of 5
         years.

                   This case is closed with no further action taken.




         1-
NSF OIG Form 2 (11102)
